Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Hospital Stays For Medicare
Beneficiaries Who Are Discharged To
       Home Health Agencies




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1998
                      OEI-02-94-00321
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Ellen Vinkey                                         Tricia Davis, Program Specialist
Steve Shaw                                           Mark Krushat
                                                     Linda Moscoe




   To obtain copies of this report, please call the New York Regional Office at 212-264-1998.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY


PURPOSE

To determine if hospital ownership of a home health agency has an effect on the inpatient length
of stay.

BACKGROUND

This section follows up on the OIG report, “Medicare Hospital Discharge Planning,” OEI 02-94-
00320, that found hospital ownership plays a significant role in the referral process to home health
agencies. There is an on-going concern that hospitals owning home health agencies are
discharging patients sooner to these services and increasing their Medicare reimbursement. The
Balanced Budget Act of 1997 includes a provision addressing this cost shifting practice, as well as
a provision that spells out requirements for hospitals that own post-hospital services, including
home health agencies. We based this study on an analysis of Medicare data for all Medicare
patients in 6 diagnosis related groups (DRGs) in 120 hospitals.

FINDINGS

Hospital Ownership of a Home Health Agency Affects Hospital Length of Stay

Patients discharged to any HHA from hospitals owning HHAs had a shorter length of stay than
similar patients discharged from hospitals not owning HHAs. The average hospital stay for
patients discharged from a hospital that owns a home health agency was 6.0 days compared to a
7.0 day stay for patients discharged from hospitals that do not own home health agencies. This
difference is statistically significant.

This Difference Occurs Regardless of Whether the Patient is Discharged to the Hospital’s
Own Home Health Agency

Among hospitals that own a home health agency, the patients’ average length of stay does not
change if the patient is discharged to a home health agency owned by the discharging hospital.
The average stay for patients discharged to a home health agency owned by their discharging
hospital is 6.1 days. The hospital stay for patients discharged to a home health agency not owned
by their discharging hospital is 6.0 days.

The Effect of Hospital Ownership Varies by Diagnosis Related Group

When we analyzed patients in different diagnosis related groups separately, we found that patients
who had bowel procedures (DRG 148), joint replacements (DRG 209) and those with chronic
obstructive pulmonary disease (DRG 88) and were discharged to a HHA from a hospital that

                                            )))))))))))
                                                 iii
owned one had shorter hospital stays. The differences were 4 days for bowel procedures and 1
day for joint replacement and pulmonary disease. We found no statistically significant differences
in the length of hospital stay based on hospital ownership of a home health agency for patients
with heart failure and shock (DRG 127), vascular procedures (DRG 478), and heart procedures
(DRGs 105, 106, and 107).

CONCLUSION

As part of the 1997 Balanced Budget Act, Congress changed the payment formula for Medicare
inpatient stays for patients in certain diagnosis related groups who are discharged early to post-
hospital settings, including home health agencies. Such cases will now be considered “transfers”
rather than “discharges” and reimbursement for the inpatient stay will therefore be reduced. Our
finding that hospital ownership of home health agencies is associated with shorter hospital lengths
of stay for certain diagnosis related groups provides additional analytical support for this
provision.

In light of our findings, we suggest that the Health Care Financing Administration consider
hospital ownership as an additional factor when selecting future diagnosis related groups to be
covered under this new “transfer reimbursement provision.”

COMMENTS

We received comments on the draft report from the Health Care Financing Administration and the
Assistant Secretary for Management and Budget (ASMB). The ASMB agree with our conclusion
and suggested a technical change in the background which we have made.

The HCFA agree that they should continue to monitor the data to understand the effect of
hospital ownership on post-acute patient referral patterns, but they are not prepared to use
hospital ownership as a factor when selecting DRGs to be covered under the new transfer
provision. We agree that hospital ownership is only one variable among others and that HCFA
should continue to monitor data to better understand the effect of hospital ownership on post-
acute referral patterns. We certainly did not intend to imply that hospital ownership should be a
deciding factor in making these decisions.




                                            )))))))))))
                                                 iv
                                        TABLE OF CONTENTS


                                                                                                                         PAGE

EXECUTIVE SUMMARY


INTRODUCTION ........................................................................................................... 1


FINDINGS ...................................................................................................................... 5


Hospital Ownership Affects Length of Stay....................................................................... 5


Hospital Ownership Does Not Affect Where The Patient Goes ........................................ 5


Hospital Length of Stay Varies By Diagnosis Related Group ............................................ 6


CONCLUSION ............................................................................................................... 8


APPENDIX


Hospital Length of Stay Data ........................................................................................... A-1


Comments ........................................................................................................................ B-1

                                  INTRODUCTION


PURPOSE

To determine if hospital ownership of a home health agency has an effect on the inpatient length
of stay.

BACKGROUND

This inspection follows up on the Office of Inspector General report, "Medicare Hospital
Discharge Planning", OEI 02-94-00320. We found that hospital ownership plays a significant role
in the referral process to home health agencies (HHAs). Sixty-two percent of patients discharged
from hospitals that owned a home health agency were referred to an agency owned by the
hospital. We also found that ownership affected the duration of hospital stay. The hospital stay
was 1 day shorter for Medicare patients discharged to the hospital's HHA than for patients
discharged to an HHA not owned by the discharging hospital. Although this 1 day difference was
not statistically significant, when combined with our other findings it warranted further study.

Concerns About Hospital Ownership

There is an on-going concern that hospitals owning post-hospital services are discharging patients
sooner to these services. Post-hospital services include: home health agencies, nursing homes and
rehabilitation and other specialty hospitals. By following this pattern, hospitals can lower their
costs for patients for whom they are receiving a lump sum prospective payment from Medicare
and discharge these same patients to post-hospital services for which they are being paid on a cost
basis. This cost shifting results in increased Medicare reimbursement for the hospital.

Early Hospital Discharges

In 1983, Medicare implemented the prospective payment system (PPS) in response to concerns
that patients were remaining in the hospital longer than necessary. This system pays a lump sum
for patient hospital stays based on diagnosis. Subsequent to implementation of the PPS there has
been a significant reduction in the average length of stay for Medicare hospital patients. There are
growing concerns as to whether patients are being discharged prematurely and post-hospital
services, like home health, are being over utilized.

According to the Prospective Payment Commission, the average length of a hospital stay for
Medicare patients fell 13 percent between 1991 and 1994. During a similar period, the
Commission found that, the share of Medicare facility payments going to post-hospital care
providers increased 15.5 percent. As one example, Medicare payments for home health care




                                            )))))))))))

totaled an estimated $16.9 billion1 in FY 1996, and are projected by the Congressional Budget
Office to grow to $26 billion by the year 2000.

Discharge Planning Referrals

Medicare requires hospitals to have a discharge planning process that identifies patients’ post-
hospital needs soon after admission and puts in place a plan that will ensure a safe discharge from
the hospital. Section 1802 of the Social Security Act seeks to ensure that free choice is
guaranteed to all Medicare patients in choosing a post-hospital provider, such as a home health
agency. When there is hospital ownership of post-hospital services, it raises concerns about the
discharge planning process. First, will patients be given the freedom to choose a post-hospital
provider in an environment where the hospital discharge planner works for an organization which
also owns post-hospital services? And secondly, in an effort to maximize Medicare
reimbursement, will hospitals use the discharge planning process inappropriately to shorten
patient hospital stays and transfer patients to post-hospital services they own?

1997 Balanced Budget Act

The Balanced Budget Act of 1997 included a provision that changes the Prospective Payment
System Diagnosis Related Group (DRG) payment formula for Medicare patients in certain DRGs
discharged to post-hospital care, including home health agencies. Medicare patients in these yet
to be determined DRGs will be considered "transfer" cases instead of "discharges" if the patient is
referred to a home health agency. In a proposed rule published on May 8, 1998 HCFA identified
10 DRGs that they recommend as “transfer” cases, if the patient is transferred to an HHA within
three days of a hospital admission. In instances where a patient in one of these DRGs stays in the
hospital for a period shorter than the average stay and is then transferred to post-hospital care in a
prospective payment system (PPS) exempt setting, reimbursement will be reduced. The hospital
will be reimbursed on a per-day basis with double payment for the first day of the stay. Where a
large portion of the costs are incurred during the first days of the stay, the law allows for payment
based on 50 percent of the full DRG plus 50 percent of the transfer payment.

Other provisions of the Balanced Budget Act require hospitals referring patients to home health
agencies (HHA) and other post-hospital providers to:

!	     not specify or otherwise limit Medicare patients in terms of which post-hospital service
       provider they receive services from;

!	     provide Medicare patients with information on HHAs and other post-hospital providers
       which serve the area;

!	     disclose to the Medicare patient any financial interest which the hospital may have in a
       HHA or other post-hospital provider to which they are referred; and,



       1
        1997 HCFA Statistics. HCFA Pub. No. 03403, October 1997.

                                             )))))))))))
!	     disclose to HCFA the nature of any financial interest which the hospital has in a home
       health agency or other post-hospital service provider, as well as related referral rate
       information.

Ownership Studies

A number of studies indicate that hospital ownership of post-hospital care facilities may affect
patient length of stay. Findings related to the relationship between hospital ownership of post-
acute services and patient referrals have been varied. For this reason, we have continued our
work in this area.

Work by Kathryn H. Dansky et al entitled "Understanding Hospital Referrals to Home Health
Agencies" analyzed 1990 discharge data from 61 Pennsylvania hospitals. Results showed that
HHA ownership was a significant predictor of home health referrals for both rural and urban
hospitals, with the effect being greater for urban hospitals. The results also suggested that home
health referrals for heart failure (DRG 127) and bowel procedures (DRG 148) are especially
sensitive to hospital ownership of a home health agency.

The HCFA funded research project, "A Study of Post-Acute Care," included an analysis of
whether hospital ownership of a post-acute facility (including a home health agency) was a
predictor of discharge placement. Hospital ownership of a post-acute facility was not found to be
a consistent predictor of whether or not a patient received post-acute services, nor whether the
post-acute provider was hospital-owned.

The Prospective Payment Assessment Commission (ProPAC) has done a number of analyses
relevant to this study. For example, they found that patients discharged from hospitals with a
skilled nursing facility (SNF) were 24 percent more likely to use a SNF than patients whose
hospitalization was in a facility without a SNF. They did not find a significant difference in use of
home health care when the hospital owned a HHA.

There are a number of other factors that may affect the hospital length of stay and subsequent
discharge to a home health agency such as the availability of post-hospital services, the severity of
the patient’s illness, hospital ownership of other post-hospital services, hospital location, and
other hospital characteristics. The purpose of this study is to determine if hospital ownership of a
home health agency affects the hospital length of stay.

METHODOLOGY

Using Hospital Cost Report Information System (HCRIS) data for the most recent year available
(PPS 12), we selected a random sample of 240 hospitals. Specialty hospitals, hospitals that are
not paid under the prospective payment system, were excluded from our sample. Hospitals were
stratified by size (less than 100 beds, 100 to 299 beds, and more than 299 beds) and grouped by
whether or not a hospital owns a HHA (ownership status). Six cells were created for our
analysis. We then verified size and ownership status with a mail survey; we had a 98 percent
response rate.


                                             )))))))))))

We based our sample on the first 20 hospitals selected for each cell. If one of those hospitals’

HCRIS data was inaccurate, that hospital was dropped and replaced by the next hospital for that

cell with accurate HCRIS data. This process resulted in a sample of 120 hospitals with 20 in each

cell. 


All Medicare patient hospital claims for 1996 associated with the sample hospitals for 6 DRG

groups were selected using the Medicare Provider Analysis and Review Hospital Record database

(MEDPAR). To determine that patients were discharged to a HHA, we used the hospital

discharge indicator and matched it to their HHA records to select only those patients who actually

received HHA services.


We analyzed lengths of stay for the following DRG groups:


!      148- Bowel Procedures with Co-morbidities (bowel procedures);

!      127- Heart Failure and Shock;

!      209- Joint Re-attachment of the Lower Extremity (joint replacement);

!      88- Chronic Obstructive Pulmonary Disease;

!      478- Vascular Procedures with Co-morbidities (vascular procedures); and,

!      105, 106, and 107- Cardiac Valve Procedures without Cardiac Catheter; Coronary Bypass

       with Cardiac Catheter and Coronary Bypass without Cardiac Catheter (heart procedures).

The first five of these DRG groups were chosen based upon two criteria: 1) they had the highest
volume of patients discharged from hospitals to HHAs; and 2) the number of patients in each of
these DRGs constituted at least 1 percent of all patients discharged from hospitals, regardless of
post-hospital care. Because we also wanted to include DRGs with higher weights, that is DRGs
associated with higher resource consumption and larger payments, we grouped patients in DRGs
105, 106 and 107 together.

We then grouped all the patients who were discharged to a HHA in their respective hospitals
according to ownership and compared the overall average length of stay across hospitals and
within each strata. For further detail, see Appendix A. This analysis was also performed for each
DRG group. Within the group that owned an HHA, we also compared the length of hospital stay
for those beneficiaries that went to the hospital’s own HHA to those that went to another HHA.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                            )))))))))))

                                   FINDINGS


Hospital Ownership of a Home Health Agency Affects Hospital Length of Stay

Patients discharged to any HHA from hospitals owning HHAs had a shorter length of stay than
similar patients discharged from hospitals not owning HHAs. The average hospital stay for
patients discharged from a hospital that owns a home health agency was 6.0 days compared to a
7.0 day stay for patients discharged from hospitals that do not own home health agencies. (See
Figure I). This difference is statistically significant.




                                            Figure I



This Difference Occurs Regardless of Whether the Patient is Discharged to the Hospital’s
Own Home Health Agency

Among hospitals that own a home health agency, the patients’ average length of stay does not
change if the patient is discharged to a home health agency owned by the discharging hospital.
The average stay for patients discharged to a home health agency owned by their discharging
hospital is 6.1 days. The hospital stay for patients discharged to a home health agency not owned
by their discharging hospital is 6.0 days.




                                           )))))))))))

The Effect of Hospital Ownership Varies By Diagnosis Related Group

Ownership Effects Hospital Length of Stay For Diagnosis Related Groups 148, 209, and 88 


Patients in DRGs 148, 209 and 88 discharged to any HHA from a hospital that owned one had

statistically shorter inpatient stays than those who were discharged to a HHA from a hospital that 

did not own one. For patients who had bowel procedures (DRG 148) the difference in the length

of the hospital stay was 4 days. Similarly, patients that had joint replacements (DRG 209) and

chronic obstructive pulmonary disease (DRG 88) had hospital stays that were 1 day shorter (See

Figure II). 




                                             Figure II





                                            )))))))))))

Hospital Ownership Does Not Effect Length of Stay For Diagnosis Related Groups 127, 478,

105, 106 , and 107


We found no differences in the length of the hospital stay for the remaining three DRGs. These

included the following: heart failure and shock (DRG 127), vascular procedures (DRG 478), and

heart procedures (DRGs 105, 106 and 107). Although there is a 1 day difference for vascular

procedures, it was not statistically significant. We might hypothesize that patients in these DRGs

are less likely to be safely discharged early than patients in the other DRGs. (See Figure III).





                                            Figure III





                                            )))))))))))

)))))))))))
     8

                                CONCLUSION


As part of the 1997 Balanced Budget Act, Congress changed the payment formula for Medicare
inpatient stays for patients in certain diagnosis related groups who are discharged early to post-
hospital settings, including home health agencies. Such cases will now be considered “transfers”
rather than “discharges” and reimbursement for the inpatient stay will therefore be reduced. Our
finding that hospital ownership of home health agencies is associated with shorter hospital lengths
of stay for certain diagnosis related groups provides additional analytical support for this
provision.

 In light of our findings, we suggest that the Health Care Financing Administration consider
hospital ownership as an additional factor when selecting future diagnosis related groups to be
covered under this new “transfer reimbursement provision.”

COMMENTS

We received comments on the draft report from the Health Care Financing Administration and the
Assistant Secretary for Management and Budget (ASMB). The ASMB agree with our conclusion
and suggested a technical change in the background which we have made.

The HCFA agree that they should continue to monitor the data to understand the effect of
hospital ownership on post-acute patient referral patterns, but they are not prepared to use
hospital ownership as a factor when selecting DRGs to be covered under the new transfer
provision. We agree that hospital ownership is only one variable among others and that HCFA
should continue to monitor data to better understand the effect of hospital ownership on post-
acute referral patterns. We certainly did not intend to imply that hospital ownership should be a
deciding factor in making these decisions.

We received comments on the draft report from the Health Care Financing Administration and the
Assistant Secretary for Management and Budget (ASMB). They generally agree with our
conclusion. The actual comments received are in Appendix B.

The HCFA agrees that they should continue to monitor the data to understand the effect of
hospital ownership on post-acute patient referral patterns, but they are not prepared to use
hospital ownership as a factor when selecting DRGs to be covered under the new transfer
provision. We agree that hospital ownership is only one variable among others that HCFA should
continue to monitor to better understand the effect of hospital ownership on post-acute referral
patterns. In a prior OIG report, “Medicare Hospital Discharge Planning,” OEI-02-94-00320, we
looked at many different variables and found that hospital ownership plays a significant role in the
referral process to home health agencies. We also found that ownership affected the duration of
hospital stay, but the difference was not statistically significant. Because of these other findings
we studied the issue further in this inspection, and found the shorter hospital length of stay to be

                                            )))))))))))
                                                 9
statistically significant. These findings support the need for continued monitoring of this data.

The ASMB suggested a technical change in the background which we have made.




                                             )))))))))))
                                                 10

                                   APPENDIX A



                   ANALYSIS OF HOSPITAL LENGTH OF STAY DATA


All beneficiaries in our sample hospitals who were discharged to a home health agency were
grouped according to hospital provider number. Overall hospital average lengths of stay were
calculated for each hospital. Information regarding the number of days spent in the hospital by
each patient, as well as their DRG, came from the MEDPAR database. The analysis involved
comparisons of the following data: (1) overall hospital average lengths of stay between hospitals
owning HHAs and hospitals not owning HHAs and (2) overall hospital average lengths of stay in
DRGs 148, 127, 209, 88, 478, and 105,106, and 107 between hospitals owning HHAs and
hospitals not owning HHAs.

In order to test for statistical significance, p-values were calculated for the average lengths of stay
at the 90 percent level of confidence. The overall length of stay demonstrated a significant
differences at the 90% level of confidence (see Table I). The length of stay difference for DRGs
148, 209, and 88 was also significant at the 90% level of confidence (see Table II).



                                               Table I

                           Average Lengths of Stay for Hospitals When
                             Beneficiaries Were Discharged to HHAs

                  Mean:        Standard      Mean:         Standard    t-test     p-value    Degrees
                   HHA           Error      No HHA           Error                              of
                 Ownership                 Ownership                                         Freedom

  Discharged        5.98         0.25        6.91           0.33       2.271     0.02859        40
  to a HHA




                                             )))))))))))
                                                A-1
                                       Table II

               Average Lengths of Stay for Hospitals When Beneficiaries
                     Were Discharged to HHAs in Certain DRGs

               Mean:      Standard     Mean:        Standard   t-test   p-value   Degrees
                HHA         Error     No HHA          Error                          of
              Ownership              Ownership                                    Freedom

 DRG 148       11.15        1.41       15.18         1.12      2.242    0.03279     29


 DRG 127        5.22        0.21       5.62          0.29      1.092    0.28214     35


 DRG 209        5.88        0.22       7.48          0.55      2.703    0.01119     30


 DRG 88         5.42        0.35       6.47          0.32      2.236    0.03222     33


 DRG 478       10.11        1.12       11.22         0.67      0.845    0.40701     23


   DRGs        10.80        0.73       9.94          0.94      -0.727   0.47311     30
105,106,107




                                      )))))))))))
                                         A-2
                                APPENDIX B


                         COMMENTS ON THE DRAFT REPORT

In this appendix, we present in full the comments from the Health Care Financing Administration
and the Assistant Secretary for Management and Budget.




                                          )))))))))))
                                             B-1
)))))))))))
   B - 2

)))))))))))
   B - 3

)))))))))))
   B - 4

)))))))))))
   B - 5

)))))))))))
   B - 6

